No. 20In the

Supreme Court of the United States
Celestino G. Almeda,
Petitioner,
v.
United States Department of Education
and United States Department of
Veterans Affairs,
Respondents.

On Petition for a Writ of Certiorari to
the United States Court of A ppeals for
the District of Columbia Circuit

PETITION FOR A WRIT OF CERTIORARI
Seth A. Watkins
Counsel of Record
Watkins Law & A dvocacy, PLLC
1455 Pennsylvania Avenue, NW,
Suite 400
Washington, DC 20004
(202) 355-9421
watkins@wlapllc.com
Counsel for Petitioner
Date: January 15, 2021
301272

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
The questions presented are:
1. Whether publicly-known, purely factual content
selected, organized, and recited in an agency’s records can
be fully withheld from disclosure under the deliberative
process privilege in Exemption 5 of the Freedom of
Information Act, 5 U.S.C. § 552(b)(5).
2. Whether the presumption of good faith attached to
an agency’s representation that it released all “reasonably
segregable portion[s] of a record” otherwise withheld
from disclosure under the deliberative process privilege,
5 U.S.C. §§ 552(b) & (b)(5), is rebutted by evidence that
would warrant a belief by a reasonable person that
segregable portions instead were withheld.

ii
PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT
Petitioner is Celestino G. Almeda. Respondents
are the United States Department of Education and the
United States Department of Veterans Affairs. No party
is a corporation.

iii
STATEMENT OF RELATED CASES
Pursuant to SCR 14.1(b)(iii), all proceedings in the
lower courts directly related to this case are:
• Almeda v. United States Dep’t of Education, No.
20-5087 (D.C. Cir.) (order dated Aug. 18, 2020); and
• Almeda v. United States Dep’t of Education, No.
1:17-cv-2641 (TSC) (D.D.C.) (final appealable order
dated Feb. 7, 2020).

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING AND RULE
29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
STATEMENT OF RELATED CASES . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISION INVOLVED  . . . . . . . . . . . 1
INTRODUCTION A ND STATEMENT OF
	THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE PETITION . . . . 10
I.

The D.C. Circuit Has Departed from This
Court’s Precedents Concerning FOIA
Exemption 5  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

v
Table of Contents
Page
II. The D.C. Circuit Has Departed From a
“Reasonable Person” Standard for the
Rebuttable Presumption of Good Faith in an
Agency’s Representations . . . . . . . . . . . . . . . . . . 14
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

vi
TABLE OF APPENDICES
Page
Appendix A — order of the united
states court of appeals for the
district of colu m bi a circuit,
filed august 18, 2020 . . . . . . . . . . . . . . . . . . . . . 1a
Appendix B — MEMORANDUM opinion
of the united states DISTRICT
C O U RT FOR T H E DISTRI C T OF
COLUMBIA, DATED FEBRUARY 7, 2020 . . . . . . 5a
APPENDIX C — STATUTORY PROVISIONS . . . . 18a

vii
TABLE OF CITED AUTHORITIES
Page
Cases
Ancient Coin Collectors Guild v.
United States Dep’t of State,
641 F.3d 504 (D.C. Cir. 2011) . . . . . . . . . . . . . . . . . . . 13
Dep’t of the Air Force v. Rose,
425 U.S. 352 (1976)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
EPA v. Mink,
410 U.S. 73 (1973)  . . . . . . . . . . . . . . . . . . . . . .  11, 12, 14
Mapother v. Dep’t of Justice,
3 F.3d 1533 (D.C. Cir. 1993) . . . . . . . . . . . . . . . . . . . . 13
Mead Data Cent., Inc. v.
United States Dep’t of the Air Force,
566 F.2d 242 (D.C. Cir. 1977) . . . . . . . . . . . . . . . . . . . 12
Montrose Chemical Corp. v. Train,
491 F.2d 63 (D.C. Cir. 1974) . . . . . . . . . . . . . . . . . . . . 12
Nat’l Archives & Records Admin. v. Favish,
541 U.S. 157 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Nat’l Sec. Archive v. CIA,
752 F.3d 460 (D.C. Cir. 2014) . . . . . . . . . . . . . . . . . . . 13
NLRB v. Sears, Roebuck & Co.,
421 U.S. 132 (1975)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

viii
Cited Authorities
Page
Sussman v. United States Marshals Serv.,
494 F.3d 1106 (D.C. Cir. 2007) . . . . . . . . . . . . . . . . . . 14
Statutes and Other Authorities
5 U.S.C. § 552(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 2
5 U.S.C. § 552(b)(5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Honoring Filipino World War II Veterans for
Their Service (Oct. 17, 2012)  . . . . . . . . . . . . . . . . . . . . 3
Recognizing the Extraordinary Contribution of
Filipino Veterans (July 9, 2013)  . . . . . . . . . . . . . . . . . 3

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Celestino G. Almeda (“Almeda”) respectfully
petitions for a writ of certiorari to review the Order
of the United States Court of Appeals for the District
of Columbia Circuit entered August 18, 2020 granting
respondents’ motion for summary affirmance.
OPINIONS BELOW
The decision of the court of appeals (App. 1a-4a) is
not published but is available at 2020 U.S. App. LEXIS
26258. The decision of the district court (App. 5a-17a) is
not published but is available at 2020 U.S. Dist. LEXIS
21320, 2020 WL 601628.
JURISDICTION
The court of appeals issued its decision granting
summary affirmance on August 18, 2020 (App. 1a-4a).
On March 19, 2020, this Court extended the time within
which to file any petition for a writ of certiorari due on or
after that date to 150 days from the date of the lower court
judgment, order denying discretionary review, or order
denying a timely petition for rehearing. Accordingly,
the deadline for filing a petition for a writ of certiorari in
this case is January 15, 2021. This Court’s jurisdiction is
invoked under 28 U.S.C. § 1254(1).
STATUTORY PROVISION INVOLVED
Pertinent statutory language from 5 U.S.C. § 552(b)
is reproduced in the appendix to this petition (App. 18a).

2
INTRODUCTION AND
STATEMENT OF THE CASE
At issue in this case is whether records overwhelmingly
factual in nature, withheld from a FOIA requester by the
United States Department of Education (“ED”) and the
United States Department of Veterans Affairs (“VA”),
are fully exempt from disclosure under the deliberative
process privilege, 5 U.S.C. § 552(b)(5), irrespective of
evidence that a reasonable person would find “reasonably
segregable,” non-exempt portions pursuant to § 552(b).
The district court below held that “each of the
contested Bates page ranges is predecisional and
deliberative because each relates to the drafting process
of a blog post.” App. 12a. Despite smoking gun evidence
compelling the antithesis—“Almeda provided an email and
attachment that the VA withheld, but that he nonetheless
obtained,” revealing overwhelmingly segregable, factual
content—the district court permitted the withholdings
“because they represent the ‘content[s] of drafts’ and
‘the drafting process itself.’” Id. (emphasis added). The
district court further held that “because disclosure of the
factual material could reveal deliberative judgments, the
court finds that withholding this material does not violate
the [agencies’] obligation to disclose reasonably segregable
material.” App. 13a. The agencies’ declarations,
representing that all segregable, nonexempt material had
been released, were accepted at face value, id., despite the
required “quantum of evidence” that Almeda submitted
which starkly demonstrated the polar opposite.
At the court of appeals, ED’s and VA’s motion for
summary affirmance subsequently was granted, the court

3
finding, in a short Order, it immaterial that “the disputed
documents may contain some factual material” and that
“the factual material cannot be reasonably segregated.”
App. 2a-3a. In addition, according to the appeals court
and despite Almeda’s clear evidence to the contrary, “the
record does not support appellant’s argument that the
government adopted the draft blog posts he seeks or used
them in its dealings with the public.” App. 3a.
Petitioner “submitted FOIA requests to the VA and
ED for documents related to an Interagency Working
Group [(“IWG”)] established to analyze the barriers faced
by Filipino veterans in obtaining compensation for their
service.”1 App. 6a. The agencies failed to timely respond
and Almeda filed suit in 2017. Id. After some disclosures,
the dispute narrowed to nineteen (19) Bates page ranges
withheld by VA and ten (10) Bates page ranges withheld
by ED. Id.
“The VA’s Declaration . . . and the Vaughn index . . .
describe the contents of each contested Bates page range
and assert that each falls under the deliberative process
privilege because it relates to the process of drafting
1. Among the agencies participating on the IWG were
ED, VA, the Office of Management and Budget, the Department of
Defense, and the National Archives and Records Administration.
See Recognizing the Extraordinary Contribution of Filipino
Veterans (July 9, 2013), available at https://obamawhitehouse.
archives.gov/ blog /2013/07/09/recognizing-extraordinar ycontribution-filipino-veterans (last viewed Jan. 15, 2021);
Honoring Filipino World War II Veterans for Their Service
(Oct. 17, 2012), available at https://obamawhitehouse.archives.gov/
blog/2012/10/17/honoring-filipino-world-war-ii-veterans-theirservice (last viewed Jan. 15, 2021).

4
a blog post about the work of the IWG.” App. 11a. ED
likewise provided a Declaration and Vaughn index
concerning its withheld documents. App. 15a-16a. The
twenty-nine (29) records, in total, in dispute and withheld
under FOIA Exemption 5 all relate to two blog postings
of the IWG, which constitute the only public reports by
that group concerning its efforts. Pet’r C.A. Resp. Br. 6.
The non-deliberative, factual content of the records
in dispute is readily apparent from the withheld content
of one of those records, a July 2, 2013 “final draft” of a
“blog” posting comprising the final report of the IWG
subsequently published on the web site of the Obama
White House a week later on July 9, 2013. 2 Pet’r C.A.
Resp. Br. 2. Almeda’s “quantum of evidence” that he
obtained outside this case, compared to the IWG’s public
blog posting on the web, indisputably demonstrates this.
Hardly deliberative in nature but withheld-in-full by both
ED and VA, the “final draft” of the blog posting also hardly
changed when its words were adopted and published. Id.
A mark-up demonstrates insignificant wordsmithing prior
to publication on the web, with the blog post reporting in
part:
In 1941, more than 260,0 0 0 Filipino
soldiers responded to President Roosevelt’s
call-to-arms and fought under the American
flag during World War II. Many made the
ultimate sacrifice as both soldiers in the U.S.
Army Forces in the Far East, and as recognized
guerrilla fighters during the Imperial Japanese
occupation of the Philippines. Later, many of
2. See n.1, supra.

5
these brave individuals became proud United
States citizens. However, because of the
Rescission Acts of 1946, most Filipino World
War II Veterans did not receive equitable
compensation on par w ith United States
veterans for their service to the United States.
P resident Oba ma recog n i zes the
extraordinary contribution made by Filipino
veterans. The A mer ican Recover y and
Reinvestment Act of 2009, which the President
signed into law, included a provision creating
the Filipino Veterans Equity Compensation
Fund. Eligible veterans who are U.S. citizens
receive a one-time payment of $15,000; eligible
veterans who are not U.S. citizens receive a
one-time payment of $9,000.
To date, we are pleased that over 18,000
claims have been approved. However, many
Filipino Veterans still believe that their
claims were improperly denied, or that they
did not receive a satisfactory explanation
as to why their claims were denied. To
address these concerns, in October 2012, the
White House Initiative on Asian Americans
and Pacific Islanders, in collaboration with
the Office of Management and Budget and
the Domestic Policy Council, created the
Filipino Veterans Equity Compensation Fund
Interagency Working Group (IWG) comprised
of the Department of Veterans Affairs, the
Department of Defense, and the National
Archives and Record Administration. The IWG

6
was tasked with analyzing the process faced
by these Filipino veterans in demonstrating
eligibility for compensation in order to ensure
that all applications receive thorough and fair
review.
Over the last seven months, the IWG has
worked toward increased transparency and a
thorough accounting of the process to verify
valid military service for Filipino World War
II veterans. This effort culminates in the
reports that follow from each member of the
IWG. The attached reports represent This
effort represents the first time all organizations
involved in the verification process were
brought together to examine the process from
start to finish, and publicly post a collaborative
report explaining each organization’s role in the
verification process. In addition to clarifying
the claims process, the IWG digitized and made
available online for the first time a report titled,
“U.S. Army Recognition Program of Philippine
Guerrillas.” This crucial report explains how the
recognition process was developed at the close
of World War II. Most significantly, the Army
publicly states their careful reasoning behind
the current policies on service verification.
Pet’r C.A. Resp. Br. 2-4 & Exs. 1-2. The remaining twentyone (21) paragraphs included insignificant wordsmithing—
mainly edits concerning the use of acronyms such as
replacing “VA” with “Department of Veterans Affairs
(VA),” replacing “Army” with “United States Army,”
replacing “NARA” with “National Archives and Records

7
Administration,” and removing the parenthetical “Board”
from “Board of Veterans’ Appeals (Board).” Id. at 4 n.1.
In all, twenty (20) of the twenty-five (25) paragraphs in
that blog posting had no edits whatsoever between the
draft and final versions. Id. at 4. Yet both ED and VA
withheld the final draft in its entirety.
A cover email with the draft blog posting, withheldin-full by ED and VA pursuant to Exemption 5, states:
Attached is a final draft of the Filipino
Veterans blog post/report that includes agency
and Executive Office of the President edits.
Please let us know if you have any major
concerns or factual edits by noon tomorrow,
July 3. We apologize for the short deadline;
the goal is to have the blog on line by Monday,
July 8.
If possible, please provide the necessary
hyperlinks by tomorrow afternoon as well
(noted in the document comments). Thank you!
Id. at Ex. 2.
In support of their decisions to withhold this record in
full, both ED and VA relied on declarations from agency
officials. ED’s declarant represented:
After carefully reviewing the withheld portions
of the responsive records, I have determined
that no portion of the withheld sections can be
reasonably segregated and released. Release
of any information from the redacted sections

8
would reveal information that is exempt from
FOIA disclosure . . . There is no non-exempt
information that can be disclosed.
Id. at 4-5. Similarly, VA’s declarant represented:
As I reviewed the records, I also performed
a line-by-line [sic] for segregable information
and that all reasonably segregable nonexempt
material has been released.
Id. at 5.
Almeda argued to the court of appeals that the
representations of the agencies’ declarants were
contradicted by the evidence he proffered, such that
any presumption of good faith to which the statements
otherwise might be entitled was rebutted and overcome.
Id. at 8. He further argued that entirely factual statements
in the copy of the record he obtained outside the case could
not be shielded by the agencies as deliberative. Id. Indeed,
the agencies withheld-in-full factual content such as:
. . . The American Recovery and Reinvestment
Act of 2009, which the President signed into
law, included a provision creating the Filipino
Veterans Equity Compensation Fund. Eligible
veterans who are U.S. citizens receive a onetime payment of $15,000; eligible veterans who
are not U.S. citizens receive a one-time payment
of $9,000.
* * *

9
In order to extend formal recognition to
Philippine guerrilla units and individuals
who contributed materially to the defeat of
Japanese forces occupying the Philippines
during World War II, the United States Army
developed and administered a recognition
program between late 1942 and June 30,
1948. Over 1.2 million individuals applied for
recognition, and ultimately over 260,000 were
recognized with positive service determinations
for the Philippine Commonwealth Army. The
recognition program ended on June 30, 1948,
the date established by Congress for final
liquidation of U.S. funds appropriated in 1946
to support the Philippine Army.
* * *
The National Personnel Records Center
(NPRC), a component of the National Archives
and Records Administration (NARA), serves as
an agent for the U.S. Army, providing storage
and reference services for records of the U.S.
Army. Among the Army records held by
NPRC are claim folders pertaining to Filipino
nationals, which were adjudicated by the U.S.
Army after World War II, and unit rosters
created by the U.S. Army in conjunction with
its recognition program.
* * *
By statute, in order to qualify for an FVEC
payment, an individual must have served before

10
July 1, 1946, in the Philippine Commonwealth
Army, including recognized guerrilla units, or
in the New Philippine Scouts. In adjudicating
claims for benefits, including FVEC, VA is
legally bound by military service department
determinations as to what service a claimant
performed. Under VA regulations, in the
absence of a suitable document issued by
a U.S. service department containing the
needed information, VA must seek verification
of ser vice from the appropriate ser vice
department, in this case, the U.S. Department
of the Army. The NPRC in St. Louis, Missouri,
acts as the custodian of the Army’s records, and
VA sends its requests for service verification
to that entity. VA also forwards to the NPRC
any evidence provided by claimants to establish
qualifying service.
Id. at 8-10 & Exs. 1, 2, & 4. Despite Almeda’s evidence
that a reasonable person would find otherwise, id. at 1011, the court of appeals inconceivably concluded that all of
this “factual material cannot be reasonably segregated.”
App. 3a.
REASONS FOR GRANTING THE PETITION
I.

The D.C. Circuit Has Departed from This Court’s
Precedents Concerning FOIA Exemption 5.

The court of appeals has stretched the deliberative
process FOIA exemption well beyond any elastic limit
contemplated by Congress and this Court. Without
a correction, permanent damage will be done to the

11
government transparency that FOIA is supposed to
provide. In this case, the D.C. Circuit’s willingness
to sanction the withholding of purely factual material
destined for public consumption—rather than created
strictly for the internal use by an agency—not to mention
clearly non-deliberative content confers impermissible
plasticity to Exemption 5. The all-encompassing,
disclosure-defeating standard applied to the records at
issue has distorted the permissible scope of the agencies’
withholdings.
This Court has recognized that “Exemption 5 was
intended to permit disclosure of those intra-agency
memoranda which would ‘routinely be disclosed’ in private
litigation.” NLRB v. Sears, Roebuck & Co., 421 U.S. 132,
149 n.16 (1975) (citation omitted). To that end, Exemption
5 embodies the attorney-client privilege and attorney’s
work-product rule. Id. at 154.
“Exemption 5 . . . requires different treatment
for materials reflecting deliberative or policymaking
processes on the one hand, and purely factual, investigative
matters on the other.” EPA v. Mink, 410 U.S. 73, 89 (1973).
Congress did not create a
wooden exemption permitting the withholding
of factual material otherwise available on
discovery merely because it was placed in a
memorandum with matters of law, policy, or
opinion. . . . Exemption 5 contemplates that the
public’s access to internal memoranda will be
governed by the same flexible, commonsense
approach that has long governed private
parties’ discovery of such documents involved

12
in litigation with Government agencies. And,
as noted, that approach extended and continues
to extend to the discovery of purely factual
material appearing in those documents in a
form that is severable without compromising
the private remainder of the documents.
Id. at 91.
Shortly after Mink, the D.C. Circuit held that
“[w]hen a summary of factual material on the public record
is prepared by the staff of an agency administrator, for his
use in making a complex decision, such a summary is part
of the deliberative process, and is exempt from disclosure
under exemption 5 of FOIA.” Montrose Chemical Corp. v.
Train, 491 F.2d 63, 71 (D.C. Cir. 1974) (emphasis added).
That holding, however, subsequently blossomed into a
much more comprehensive exemption from disclosure.
“In some circumstances,” the court of appeals found
that “the disclosure of even purely factual material may
so expose the deliberative process within an agency that
it must be deemed exempted by section 552(b)(5).” Mead
Data Cent., Inc. v. United States Dep’t of the Air Force,
566 F.2d 242, 256 (D.C. Cir. 1977) (footnote and citations
omitted). The case law further gravitated away from “a
commonsense approach” in 2011, when the court held that
the legitimacy of withholding does not turn
on whether the material is purely factual in
nature or whether it is already in the public
domain, but rather on whether the selection
or organization of facts is part of an agency’s
deliberative process.

13
Ancient Coin Collectors Guild v. United States Dep’t of
State, 641 F.3d 504, 513 (D.C. Cir. 2011). According to
the court of appeals, an agency’s “‘selection of the facts
thought to be relevant’ is part of the deliberative process;
it necessarily involves ‘policy-oriented judgment.’” Nat’l
Sec. Archive v. CIA, 752 F.3d 460, 465 (D.C. Cir. 2014),
quoting Mapother v. Dep’t of Justice, 3 F.3d 1533, 1359
(D.C. Cir. 1993). It is from this perspective that all form
of Exemption 5 mischief may sprout.
According to the court of appeals, “[a]lthough the
disputed documents may contain some factual material,”
those “drafts and corresponding emails were part of a
deliberative process, spanning several months, during
which the government summarized the benefits process
for Filipino veterans from a large universe of facts.” App.
2a (emphasis added). Relying on Ancient Coin and Nat’l
Sec. Archive, see id., the court held in short order that the
government’s withholdings are “justified.” Id.
The court of appeals has misapplied this Court’s
precedents and created an amorphous standard under
which factual materials readily may be withheld pursuant
to Exemption 5. This case is proof. The appeals court
has construed FOIA in a manner that contravenes “the
basic policy that disclosure, not secrecy, is the dominant
objective of [the statute]” and that exemptions, including
Exemption 5, “must be narrowly construed.” Dep’t of
the Air Force v. Rose, 425 U.S. 352, 361 (1976) (citations
omitted).
It simply is inconceivable that entire factual
paragraphs describing that “[t]he American Recovery
and Reinvestment Act of 2009, which the President

14
signed into law, included a provision creating the Filipino
Veterans Equity Compensation Fund,” “[t]he National
Personnel Records Center (NPRC) . . . serves as an agent
for the U.S. Army,” and “VA sends its requests for service
verification to that entity,” to call attention to just a few,
cannot be segregated from other purportedly deliberative
material and released. Pet’r C.A. Resp. Br. 8-10 & Exs.
1, 2, & 4. The selection and organization of pure facts
does not per se implicate any deliberative process so as
to warrant withholdings.
This Court’s holding in Mink, permitting “discovery
of purely factual material appearing in [records] in a
form that is severable without compromising the private
remainder of the documents,” 410 U.S. at 91, has been
warped by the court of appeals, rendering Exemption 5
a means by which the FOIA statute no longer serves its
pro-disclosure purpose. When purely factual material—in
drafts or otherwise—is permitted to be withheld, as here,
Exemption 5 simply is given undue breadth.
II. The D.C. Circuit Has Departed From a “Reasonable
Person” Standard for the Rebuttable Presumption
of Good Faith in an Agency’s Representations.
The court of appeals has held that “[a]gencies are
entitled to a presumption that they complied with the
obligation to disclose reasonably segregable material”
but “[t]he quantum of evidence required to overcome that
presumption is not clear.” Sussman v. United States
Marshals Serv., 494 F.3d 1106, 1117 (D.C. Cir. 2007)
(emphasis added); App. 13a. This leaves in limbo the
standard for rebutting an agency’s declaration concerning
its release, if any, of segregable material, again permitting

15
all form of mischief by agencies seeking to shield records
from disclosure.
This case presents the perfect example of how
agencies’ representations concerning segregability may
not withstand basic scrutiny. Both VA and ED withheld
records in their entirety and represented that no portions
were segregable. Pet’r C.A. Resp. Br. 4-5. But Almeda
put before both the district court and the court of appeals
a complete copy of one of the withheld records that he
obtained outside this case. App. 12a. That document
proves false the agencies’ representations that the record
lacks segregable, non-exempt content. Pet’r C.A. Resp.
Br. 8-10 & Exs. 1, 2, & 4. Indeed, the content of the record
(the email and attachment) either is not deliberative
or is factual, and is segregable; substantially all of the
paragraphs of the final draft of the blog post comprise
factual content that is readily segregable. Id.
In Nat’l Archives & Records Admin. v. Favish, this
Court set a “reasonable person” standard for a rebuttable
presumption in connection with FOIA Exemption 7(C):
[W]here there is a privacy interest protected
by Exemption 7(C) and the public interest being
asserted is to show that responsible officials
acted negligently or otherwise improperly in
the performance of their duties, the requester
must establish more than a bare suspicion
in order to obtain disclosure. Rather, the
requester must produce evidence that would
warrant a belief by a reasonable person that
the alleged Government impropriety might
have occurred.

16
541 U.S. 157, 174 (2004). But without such a firm standard
with respect to segregability, the district court and indeed
the court of appeals have adopted a 19th century, “wild
west” approach. Both courts simply ignored Almeda’s
evidence proffered to rebut the presumption of good faith
in the agencies’ representations. App. 13a (district court
holding that “because disclosure of the factual material
could reveal deliberative judgments, the court finds
that withholding this material does not violate the VA’s
obligation to disclose reasonably segregable material”);
App. 3a (court of appeals conclusion, without any analysis
of Almeda’s evidence, that “the factual material cannot
be reasonably segregated”). Such randomness cannot be
countenanced in a FOIA segregability analysis.
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted
Seth A. Watkins
Counsel of Record
Watkins Law & A dvocacy, PLLC
1455 Pennsylvania Avenue, NW,
Suite 400
Washington, D.C. 20004
(202) 355-9421
watkins@wlapllc.com
Counsel for Petitioner
Date: January 15, 2021

APPENDIX

1a
A THE UNITED
APPENDIX A —Appendix
ORDER OF
STATES COURT OF APPEALS FOR THE
DISTRICT OF COLUMBIA CIRCUIT,
FILED AUGUST 18, 2020
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 20-5087
CELESTINO G. ALMEDA,
Appellant ,
v.
UNITED STATES DEPARTMENT OF EDUCATION
AND UNITED STATES DEPARTMENT OF
VETERANS AFFAIRS,
Appellees.
September Term, 2019
1:17-cv-02641-TSC
August 18, 2020, Filed
BEFORE: Henderson, Tatel, and Katsas, Circuit
Judges.
ORDER
Upon consideration of the motion for summary
affirmance, the opposition thereto, and the reply, it is

2a
Appendix A
ORDERED that the motion for summary affirmance
be granted. The merits of the parties’ positions are so clear
as to warrant summary action. See Taxpayers Watchdog,
Inc. v. Stanley, 819 F.2d 294, 297, 260 U.S. App. D.C.
334 (D.C. Cir. 1987) (per curiam). On appeal, appellant
challenges only the government’s withholdings as to the
drafts of the July 9, 2013 blog post and emails related to
those drafts.
As to the material withheld under the deliberative
process privilege in Exemption 5 of the Freedom of
Information Act (“FOIA”), 5 U.S.C. § 552(b)(5), the
government has shown that its withholdings are justified.
Although the disputed documents may contain some
factual material, “the legitimacy of withholding does
not turn on whether the material is purely factual in
nature or whether it is already in the public domain, but
rather on whether the selection or organization of facts
is part of an agency’s deliberative process.” Ancient Coin
Collectors Guild v. Dep’t of State, 641 F.3d 504, 513, 395
U.S. App. D.C. 138 (D.C. Cir. 2011). Here, the drafts and
corresponding emails were part of a deliberative process,
spanning several months, during which the government
summarized the benefits process for Filipino veterans
from a large universe of facts. See id.; Nat’l Sec. Archive
v. CIA, 752 F.3d 460, 465, 410 U.S. App. D.C. 8 (D.C. Cir.
2014) (“In producing a draft agency history, the writer
necessarily must cull the relevant documents, extract
pertinent facts, organize them to suit a specific purpose,
and identify the significant issues. . . . In doing so, the
selection of the facts thought to be relevant is part of
the deliberative process; it necessarily involves policy-

3a
Appendix A
oriented judgment.”) (internal citations and quotation
marks omitted). And the factual material cannot be
reasonably segregated. Id.
Additionally, the record does not support appellant’s
argument that the government adopted the draft blog
posts he seeks or used them in its dealings with the
public. See Judicial Watch, Inc. v. Dep’t of Def., 847 F.3d
735, 739, 427 U.S. App. D.C. 356 (D.C. Cir. 2017) (“To
adopt a deliberative document . . . the agency must make
an ‘express[ ]’ choice to use a deliberative document as a
source of agency guidance.”) (internal citation omitted)
(emphasis in original). Accordingly, the drafts have
retained their predecisional status.
As to appellant’s argument regarding the redactions
of names of non-senior employees within the deliberative
documents, the government has demonstrated that
those withholdings fit within Exemption 6, 5 U.S.C.
§ 552(b)(6). Almeda has failed to identify any public
interest that would be served by disclosure of the redacted
names. See Nat’l Ass’n of Home Builders v. Norton, 309
F.3d 26, 34, 353 U.S. App. D.C. 374 (D.C. Cir. 2002).
Pursuant to D.C. Circuit Rule 36, this disposition
will not be published. The Clerk is directed to withhold
issuance of the mandate herein until seven days after
resolution of any timely petition for rehearing or petition
for rehearing en banc. See Fed. R. App. P. 41(b); D.C. Cir.
Rule 41.

4a
Appendix A
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
		BY:

/s/				
Manuel J. Castro
Deputy Clerk

5a
B
APPENDIX B — Appendix
MEMORANDUM
OPINION
OF THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA, DATED
FEBRUARY 7, 2020
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Civil Action No. 1:17-cv-2641 (TSC)
CELESTINO G. ALMEDA,
Plaintiff,
v.
UNITED STATES DEPARTMENT
OF EDUCATION, et al.,
Defendants.
MEMORANDUM OPINION
Plaintiff Celestino G. Almeda has sued Defendants U.S.
Department of Education (“ED”) and U.S. Department of
Veterans Affairs (“VA”) seeking to compel responses to
his three Freedom of Information Act (“FOIA”) requests.
Pending before the court are Defendants’ Motion for
Summary Judgment (ECF No. 32 (“Defs. MSJ”)), and
Almeda’s Cross-Motion for Summary Judgment (ECF No.
34 (“Pl. MSJ”). For the reasons set forth below, the court
will GRANT Defendants’ motion for summary judgment
and DENY Almeda’s cross-motion for summary judgment.

6a
Appendix B
I. BACKGROUND
Almeda is a veteran who served during World War II
as a guerrilla fighter against the Japanese occupation of
the Philippines. (ECF No. 1 (“Compl.”) ¶ 2.) In response to
Rescission Acts in 1946 that prevented Filipino veterans
from accessing United States veterans’ benefits, and other
continuous barriers to those benefits, Almeda has long
advocated for proper recognition and compensation of
Filipino veterans. (Id. ¶ 3.) On October 16, 2017, Almeda
submitted FOIA requests to the VA and ED for documents
related to an Interagency Working Group established
to analyze the barriers faced by Filipino veterans in
obtaining compensation for their service. (Id. ¶¶ 26, 33,
41.) Receiving no timely response to his FOIA requests,
Almeda brought this suit on December 8th, 2017. (Id.
¶¶ 51-55.) Since that time, Defendants have satisfied
portions of Almeda’s requests, such that the remaining
dispute presents only two narrow questions: whether the
VA improperly withheld 19 Bates page ranges and whether
the ED improperly withheld 10 Bates page ranges.
II. LEGAL STANDARD
A. Summary Judgment
Summary judgment is proper where the record shows
there is no genuine issue of material fact and the movant
is entitled to judgment as a matter of law. Fed. R. Civ. P.
56(a); Celotex Corp. v. Catrett, 477 U.S. 317, 322, 106 S.
Ct. 2548, 91 L. Ed. 2d 265 (1986); Waterhouse v. District
of Columbia, 298 F.3d 989, 991, 353 U.S. App. D.C. 205

7a
Appendix B
(D.C. Cir. 2002). “A fact is ‘material’ if a dispute over it
might affect the outcome of a suit under governing law;
factual disputes that are ‘irrelevant or unnecessary’ do not
affect the summary judgment determination.” Holcomb
v. Powell, 433 F.3d 889, 895, 369 U.S. App. D.C. 122 (D.C.
Cir. 2006) (quoting Anderson v. Liberty Lobby, 477 U.S.
242, 248, 106 S. Ct. 2505, 91 L. Ed. 2d 202 (1986)). “An
issue is ‘genuine’ if ‘the evidence is such that a reasonable
jury could return a verdict for the nonmoving party.’“ Id.
Courts must view “the evidence in the light most favorable
to the non-movant[ ] and draw[ ] all reasonable inferences
accordingly,” and determine whether a “reasonable jury
could reach a verdict” in the non-movant’s favor. Lopez v.
Council on Am.-Islamic Relations Action Network, Inc.,
826 F.3d 492, 496, 423 U.S. App. D.C. 328 (D.C. Cir. 2016).
B. FOIA
FOIA cases are typically and appropriately decided
on motions for summary judgment. Brayton v. Office of
the U.S. Trade Rep., 641 F.3d 521, 527, 395 U.S. App. D.C.
155 (D.C. Cir. 2011). “FOIA provides a ‘statutory right of
public access to documents and records’ held by federal
government agencies.” Citizens for Responsibility &
Ethics in Wash. (“CREW”) v. U.S. Dep’t of Justice, 602 F.
Supp. 2d 121, 123 (D.D.C. 2009) (quoting Pratt v. Webster,
673 F.2d 408, 413, 218 U.S. App. D.C. 17 (D.C. Cir. 1982)).
FOIA requires that federal agencies comply with requests
and make their records available to the public unless
such “information is exempted under [one of nine] clearly
delineated statutory [exemptions].” Crew, 602 F. Supp. 2d
at 123; see also 5 U.S.C. §§ 552(a)-(b). The district court

8a
Appendix B
conducts a de novo review of the agency’s decision to
withhold requested documents under any of FOIA’s specific
statutory exemptions. See id. § 552(a)(4)(B). The burden
is on the government agency to show that nondisclosed,
requested material falls within a stated exemption. See
Petroleum Info. Corp. v. U.S. Dep’t of Interior, 976 F.2d
1429, 1433, 298 U.S. App. D.C. 125 (D.C. Cir. 1992) (citing
5 U.S.C. § 552(a)(4)(B)).
In cases where the applicability of certain FOIA
exemptions is at issue, agencies may rely on supporting
declarations that are reasonably detailed and nonconclusory. The declarations must provide enough
information “to afford the FOIA requester a meaningful
opportunity to contest, and the district court an adequate
foundation to review, the soundness of the withholding.”
King v. Dep’t of Justice, 830 F.2d 210, 218, 265 U.S.
App. D.C. 62 (D.C. Cir. 1987). “If an agency’s affidavit
describes the justifications for withholding the information
with specific detail, demonstrates that the information
withheld logically falls within the claimed exemption, and
is not contradicted by contrary evidence in the record
or by evidence of the agency’s bad faith, then summary
judgment is warranted on the basis of the affidavit alone.”
ACLU v. United States DOD, 628 F.3d 612, 619, 393 U.S.
App. D.C. 384 (D.C. Cir. 2011) (citations omitted). However,
a motion for summary judgment should be granted in favor
of the FOIA requester where “an agency seeks to protect
material which, even on the agency’s version of the facts,
falls outside the proffered exemption.” Coldiron v. United
States DOJ, 310 F. Supp. 2d 44, 48 (D.D.C. 2004) (quoting
Petroleum Info. Corp., 976 F.2d at 1433).

9a
Appendix B
III. ANALYSIS
Defendants raise several bases for their withholdings,
only some of which Almeda contests. Although “a motion
for summary judgment cannot be ‘conceded’ for want of
opposition,” Winston & Strawn, LLP v. McLean, 843
F.3d 503, 505, 427 U.S. App. D.C. 17 (D.C. Cir. 2016), “this
does not mean . . . that the Court must assess the legal
sufficiency of each and every exemption invoked by the
government in a FOIA case.” Shapiro v. United States
DOJ, 239 F. Supp. 3d 100, 106 n.1 (D.D.C. 2017). Instead:
Where the FOIA requester responds to the
government’s motion for summary judgment
without taking issue with the government’s
decision to withhold or to redact documents,
the Court can reasonably infer that the FOIA
requester does not seek those specific records
or information and that, as to those records or
information, there is no case or controversy
sufficient to sustain the Court’s jurisdiction.
Id. Accordingly, the court will address only Plaintiff’s
arguments in response to Defendants’ motion for
summary judgment.
A. Withholdings by the Department of Veterans Affairs
Almeda contests the VA’s invocation of Exemption 5,
its assertion that it has made all reasonable segregations,
and its withholding the names of non-senior employees.

10a
Appendix B
1.

Exemption 5 Withholdings

Exemption 5 shields documents that would “normally
[be] privileged from discovery in civil litigation against
the agency,” such as documents protected by the attorneyclient, work-product, and deliberative process privileges.
Tax Analysts v. IRS, 117 F.3d 607, 616, 326 U.S. App.
D.C. 53 (D.C. Cir. 1997). To withhold a document under
Exemption 5, the “document must meet two conditions:
[1] its source must be a Government agency, and [2] it must
fall within the ambit of a privilege against discovery under
judicial standards that would govern litigation against the
agency that holds it.” Stolt-Nielsen Transp. Grp. Ltd. v.
U.S., 534 F.3d 728, 733, 383 U.S. App. D.C. 1 (D.C. Cir.
2008) (citations and internal quotation marks omitted).
There is no dispute that the first condition is met; the
parties’ dispute is directed to the second condition.
The VA withheld the contested Bates page ranges, or
portions thereof, on the basis that they are protected by
the deliberative process privilege or the attorney-client
privilege or both. (Defs. MSJ at 13.)1 Almeda argues
that neither privilege applies, and therefore Exemption
5 does not apply. 2 To resolve such a dispute, a court must
1. When citing electronic filings throughout this opinion, the
court cites to the ECF page number, not the page number of the
filed document.
2. Based on the chart provided in Almeda’s motion, he appears
to contest the applicability of Exemption 5 as to 18 of the 19 contested
Bates page ranges. For some entries, Almeda explicitly contests the
applicability (“attorney-client privilege unsupported”) but for others,
he only does so implicitly (“email chain sent interagency and includes
non-attorneys.”) (Pl. MSJ at 15-17.)

11a
Appendix B
decide whether the “agency’s affidavit describes the
justifications for withholding the information with specific
detail,” and “demonstrates that the information withheld
logically falls within the claimed exemption.” ACLU,
628 F.3d at 619 (citations omitted). If the affidavit meets
these requirements, the agency is entitled to summary
judgment unless the record includes “contrary evidence”
or “evidence of the agency’s bad faith.” Id.
The VA’s Declaration from Michael Davis, and the
Vaughn index attached thereto, describe the contents of
each contested Bates page range and assert that each falls
under the deliberative process privilege because it relates
to the process of drafting a blog post about the work of
the IWG. (ECF No. 32-3 (“Davis Decl.”) at 6-11.) The
Declaration also asserts that some emails were protected
not only by the deliberative process privilege, but also
by the attorney-client privilege, because they involved
consultation with lawyers about accurate statements of
law. (See Defs. MSJ at 15.) Almeda contests the presence
of both privileges, (ECF No. 39 (“Pl. Reply”) at 3-4), but
this court need not reach the issue of attorney-client
privilege because the relevant material is protected by
the deliberative process privilege.
Materials are protected by the deliberative process
privilege if they are both “predecisional” and “deliberative.”
Mapother v. Dep’t of Justice, 3 F.3d 1533, 1537, 303 U.S.
App. D.C. 249 (D.C. Cir. 1993). The privilege has been
held to protect “recommendations, draft documents,
proposals, suggestions, and other subjective documents
which reflect the personal opinions of the writer rather

12a
Appendix B
than the policy of the agency.” Coastal States Gas Corp.
v. Dep’t of Energy, 617 F. 2d 854, 866, 199 U.S. App. D.C.
272 (D.C. Cir. 1980). Here, each of the contested Bates
page ranges is predecisional and deliberative because
each relates to the drafting process of a blog post. (Davis
Decl. at 6-11.) In his Reply, Almeda provided an email and
attachment that the VA withheld, but that he nonetheless
obtained, and argues that its contents are not deliberative.
(Pl. Reply at 2-4). The court disagrees. “The deliberative
process privilege protects not only the content of drafts,
but also the drafting process itself.” Competitive Enter.
Inst. v. Office of Sci. & Tech. Policy, 161 F. Supp. 3d 120,
132 (D.D.C. 2016). The email in question describes the
timing of the publication, the draft at a particular stage in
the process, and the roles played by various members in
the drafting process. The email and associated attachment
are thus protected because they represent the “content[s]
of drafts” and “the drafting process itself.” Id.3
Finding that the VA “describes the justifications” for
withholding the contested documents and “demonstrates
that the information withheld logically falls within”
Exemption 5, and finding that there is no “contrary
evidence” or “evidence of the agency’s bad faith,” the court
thus finds that the VA has sufficiently established that
the withheld material properly falls within Exemption 5.
ACLU, 628 F.3d at 619 (citations omitted).
3. Almeda also notes that a draft can lose its predecisional
status if it is adopted as the position of the agency. See, e.g., Arthur
Andersen & Co. v. IRS, 679 F.2d 254, 257-58, 220 U.S. App. D.C.
77 (D.C. Cir. 1980). Here, however, the comments in the margins of
the relevant draft indicate that it was not the final version adopted
by the agency.

13a
Appendix B
2.

Failure to Segregate

Almeda also argues that even if Exemption 5 applies,
the VA failed to segregate and disclose non-exempt
information from each of the 20 contested Bates page
ranges. (Pl. MSJ at 15-17.) The VA’s Davis Declaration
states that Davis “performed a line-by-line for segregable
information and that all reasonably segregable nonexempt
material has been released.” (Davis Decl. at 15.) Almeda
argues that this cannot be the case, because the email
and attachment he obtained (that otherwise remains
withheld) includes what he considers to be “segregable,
factual content.” (Pl. Reply at 3.)
In resolving disputes about the release of segregable
information, “[a]gencies are entitled to a presumption that
they complied with the obligation to disclose reasonably
segregable material,” which must be overcome by a some
“quantum of evidence” by the requester. Sussman v. U.S.
Marshals Serv., 494 F.3d 1106, 1117, 377 U.S. App. D.C.
460 (D.C. Cir. 2007). Moreover, courts in this district have
made clear that “[a]ny effort to segregate the factual
portions of the drafts, as distinct from their deliberative
portions, would run the risk of revealing editorial
judgments.” Competitive Ent. Inst., 161 F. Supp. 3d at 132.
This is because such a disclosure could reveal “decisions
to insert or delete material or to change a draft’s focus
or emphasis.” Id. Thus, because disclosure of the factual
material could reveal deliberative judgments, the court
finds that withholding this material does not violate the
VA’s obligation to disclose reasonably segregable material.

14a
Appendix B
3.

Names of Non-Senior Employees

Almeda argues that “there is no explanation as to why
certain names . . . have been redacted.” (Pl. MSJ at 17.)
He specifically points to names redacted in Bates page
ranges 226-233, 277-279, 322-325, and 347-351. (Id. at 1617.) Defendants claim that the redactions are authorized
by Exemption 6 because they prevent the disclosure of the
names of “nonsenior government employees” who “have a
privacy interest in preventing their identities from being
disclosed to the public.” (ECF No. 37 (“Defs. Reply”) at 2.)
However, the court need not reach the issue of whether the
names are properly withheld under Exemption 6 because
it finds they are properly withheld under Exemption 5.
The D.C. Circuit has held that “[i]f agency records are
indeed deliberative, it is appropriate to apply Exemption
5 to the documents themselves, as well as to the names
of their authors.” Brinton v. Dep’t of State, 636 F.2d 600,
604, 204 U.S. App. D.C. 328 (D.C. Cir. 1980); see also
Pub. Citizen, Inc. v. U.S. Dep’t of Educ., 388 F. Supp. 3d
29, 44 (D.D.C. 2019) (“Because the emails are protected
under the deliberative process privilege, the Court
finds that the identity of the author of those emails . . .
is also protected”); Aaron v. U.S. Dep’t of Justice,
No. 09-00831 (HHK), 2011 U.S. Dist. LEXIS 164342, 2011
WL 13253641, *8 (D.D.C. July 15, 2011) (“This Circuit has
recognized that if a document is deliberative in nature,
the identity of the author is also privileged.”) Because
the underlying documents are indeed deliberative, and
because the redacted names are those of the authors of
those deliberative documents, the court finds that the
names were properly withheld.

15a
Appendix B
B. Withholdings by the Department of Education
A lmeda arg ues that ED improperly w ithheld
information contained in attachments to emails and that
it failed to segregate non-exempt information.
1.

Attachments

Almeda argues that Defendants offer no reason “why
attachments undoubtedly associated with these emails
are not included in the Bates ranges of withholdings.”
(Pl. MSJ at 19.) Defendants respond that “all documents
with withheld information are included on ED’s Vaughn
index.”4 (Defs. Reply at 3.) Moreover, the Declaration
supplied by Defendants indicates that the Vaughn index
includes all the records that were withheld. (ECF No. 32-4
(“Siegelbaum Decl.”) ¶ 15.) Declarations of agencies are
“accorded a presumption of good faith, which cannot be
rebutted by purely speculative claims about the existence
and discoverability of other documents.” SafeCard Servs.,
Inc. v. SEC, 926 F.2d 1197, 1200, 288 U.S. App. D.C.
324 (D.C. Cir. 1991) (internal quotation marks omitted).
Because Almeda provides no explanation for the assertion
that there are documents excluded from the Vaughn
Index, and further provides no evidence to support such
4. ”A Vaughn index describes the documents withheld or
redacted and the FOIA exemptions invoked, and explains why each
exemption applies.” Prison Legal News v. Samuels, 787 F.3d 1142,
1145 n.1, 415 U.S. App. D.C. 354 (D.C. Cir. 2015) (citing Vaughn v.
Rosen, 484 F.2d 820, 157 U.S. App. D.C. 340 (D.C. Cir. 1973); Keys
v. U.S. Dep’t of Justice, 830 F.2d 337, 349, 265 U.S. App. D.C. 189
(D.C. Cir. 1987)).

16a
Appendix B
an assertion, the court finds that ED properly included
all withheld information on the Vaughn Index. 5
2.

Segregable Information

Almeda argues that ED “failed to release segregable
information” in 10 Bates page ranges. (Pl. MSJ at 17-18.)
Defendants point to the Siegelbaum Declaration, which
asserts that “no portion of the withheld sections can
be reasonably segregated and released.” (Siegelbaum
Decl. at ¶ 21.) As noted above, “agencies are entitled to
a presumption that they complied with the obligation to
disclose reasonably segregable material,” which must be
overcome by some “quantum of evidence” by the requester.
Sussman, 494 F.3d at 1117. Here, Almeda merely asserts
that ED failed to release segregable information without
providing any evidence in support thereof.6 Accordingly,
the court finds that ED complied with the obligation to
disclose reasonably segregable material.

5. The documents that Almeda does provide—the email and
attachment he obtained despite both being withheld—show that at
least in that instance, the Vaughn Index does properly include the
attachment to the email, given that the page range listed in the index
(1064-1084) encompasses the pages of the attachment. (Pl. Reply at 2.)
6. Moreover, as discussed above, “[a]ny effort to segregate the
factual portions of the drafts, as distinct from their deliberative
portions, would run the risk of revealing editorial judgments—for
example, decisions to insert or delete material or to change a draft’s
focus or emphasis.” Competitive Ent. Inst., 161 F. Supp. 3d at 132
(internal citations omitted).

17a
Appendix B
IV. CONCLUSION
For the foregoing reasons, Defendants’ motion for
summary judgment will be GRANTED and Almeda’s
cross-motion for summary judgment will be DENIED.
A corresponding Order will issue separately.
Date: February 7, 2020
/s/ Tanya S. Chutkan
TANYA S. CHUTKAN
United States District Judge

18a
C PROVISIONS
APPENDIX C — Appendix
STATUTORY
5 U.S.C. 552(b) provides in pertinent part:
Public information; agency rules, opinions, orders,
records, and proceedings
*  *  *  *  *
(b) This section does not apply to matters that are—
*  *  *  *  *
(5) inter-agency or intra-agency memorandums
or letters that would not be available by law to a party
other than an agency in litigation with the agency,
provided that the deliberative process privilege shall not
apply to records created 25 years or more before the date
on which the records were requested;
*  *  *  *  *
Any reasonably segregable portion of a record shall be
provided to any person requesting such record after
deletion of the portions which are exempt under this
subsection. The amount of information deleted, and the
exemption under which the deletion is made, shall be
indicated on the released portion of the record, unless
including that indication would harm an interest protected
by the exemption in this subsection under which the
deletion is made. If technically feasible, the amount of
the information deleted, and the exemption under which
the deletion is made, shall be indicated at the place in the
record where such deletion is made.

